HHS/OIG, Audit -"Review of Alaska's Medicaid Payments For Skilled Professional Medical Personnel Reimbursed At
The Enhanced Rate For The Period October 2, 2002, Through September 30, 2003,"(A-09-04-00040)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Alaska's Medicaid Payments For Skilled Professional Medical Personnel Reimbursed At The Enhanced Rate
For The Period October 2, 2002, Through September 30, 2003," (A-09-04-00040)
November 23, 2004
Complete
Text of Report is available in PDF format (1.09 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if Alaska properly claimed Federal Medicaid
reimbursement at the enhanced rate for skilled professional medical personnel for the Federal fiscal year ended September
30, 2003.  Alaska improperly claimed Federal Medicaid reimbursement of $758,215 at the enhanced rate for skilled
professional medical personnel.  The costs claimed by Alaska included unallowable costs totaling $233,102 and unsupported
costs totaling $525,113.  The unallowable costs included costs associated with programs that did not require skilled
professional medical personnel, indirect costs that cannot be claimed at an enhanced rate, and an amount due to a calculation
error.  The unsupported costs included costs associated with personal services that were not supported by adequate
or approved time reporting methods, and related travel costs.  Alaska generally did not concur with our finding
and recommendations.